TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Initial Implementation of the
                        End User Access System Was Not
                      Effectively Planned and the Continued
                       Implementation Needs to Ensure the
                            Efficient Use of Resources



                                         September 2005

                              Reference Number: 2005-10-182




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 30, 2005


MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
               DIVISION



FROM:                        Pamela J. Gardiner
                             Deputy Inspector General for Audit

SUBJECT:                     Final Audit Report – The Initial Implementation of the End User
                             Access System Was Not Effectively Planned and the Continued
                             Implementation Needs to Ensure the Efficient Use of Resources
                             (Audit # 200510004)

This report presents the results of our review of Tax Exempt and Government Entities (TE/GE)
Division’s process used to prepare for the planned implementation of the End User Access
System (EUAS).1 The TE/GE and Small Business/Self-Employed Divisions use information
from this system to resolve unposted return transactions, determine whether penalty notices for
late or incomplete returns should be issued, respond to customer’s telephone calls regarding filed
Annual Return/Reports of Employee Benefit Plan (Form 5500), provide employees original
copies of Forms 5500 under examination, and obtain copies of Forms 5500 for the Employee
Plans Classification Unit’s Quarterly Quality Reviews. The overall objective of this review was
to assess the impact the EUAS will have on Internal Revenue Service (IRS) operations and to
evaluate IRS processes used to prepare for the planned implementation of the EUAS.

Synopsis


1
 The EUAS is a subsystem of the ERISA Filing Acceptance System (EFAST) and is used to view, search, and print
electronic images of Annual Return/Reports of Employee Benefit Plan (Form 5500). The ERISA is the Employee
Retirement Income Security Act of 1974 (Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered
sections of 5 U.S.C., 18 U.S.C., 26 U.S.C., 29 U.S.C., and 42 U.S.C.)). The EFAST system captures paper and
electronic Forms 5500 return information in a format compatible with the Internal Revenue Service’s Employee
Plans Master File (a database that maintains account information for employee plans). It also produces electronic
images of the paper Forms 5500.
                  The Initial Implementation of the End User Access System Was
                 Not Effectively Planned and the Continued Implementation Needs
                               to Ensure the Efficient Use of Resources


The Employee Retirement Income Security Act of 1974 (ERISA) requires plan administrators
and sponsors of certain employee benefit plans to submit a Form 5500. Forms 5500 are filed
with the Department of Labor (DOL), which has contracted with a private contractor to process
the returns using the ERISA Filing Acceptance System. On June 15, 2000, the IRS and DOL
established an Interagency Agreement2 to receive services for the processing of Forms 5500. As
part of this Interagency Agreement, the DOL was required to provide the IRS access to the
EUAS, which contains digital images of the Forms 5500, attached schedules, and envelopes
(showing the postmark date).
Based on our review of four judgmental samples within the TE/GE Division operations using the
EUAS and the Small Business/Self-Employed Division site in Ogden, Utah, responsible for
processing TE/GE Division return information and notices and discussions with TE/GE Division
management, we believe the EUAS has been demonstrated to be a useful research tool in only
two operations, the Ogden Accounts Management Center Employee Plans Accounts
(EP Accounts) unit and the Employee Plans (EP) Examinations function Classification unit. For
the EP Accounts unit, the EUAS provided additional information, such as the postmark date
from the envelope, in 16 percent of our sampled cases, which allowed employees to determine
whether a notice should be mailed. If IRS employees had not used the EUAS, these customers
would have received erroneous notices, causing additional taxpayer burden, correspondence to
the operation, and customer inquiries to the TE/GE Division Customer Account Services call
site. In addition, TE/GE Division management advised us the EUAS has increased efficiency for
the EP Examinations function Classification staff because they previously had to send
individuals to the DOL contractor site to research the EUAS, but they can now access the EUAS
online. The EP Examinations function Classification staff uses the EUAS to select their samples,
which are used to verify the quality of data on the Return Inventory Classification System.3
Finally, TE/GE Division management advised us the EUAS may be used in the future as a
research tool for the EP function Taxpayer Delinquency Investigation initiative.4
For the remaining two operations5 in our samples, employees were able to obtain the necessary
information to complete their work through other IRS sources for 98 to 100 percent of our
sampled cases. In addition, while the EUAS is a useful tool for the EP Examinations function
Classification unit, it would have little impact on examinations based on our review of a sample
of closed EP examinations. TE/GE Division management advised us the EUAS was intended to

2
  A written agreement entered into between two Federal Government agencies that specifies the goods to be
furnished or tasks to be accomplished by one agency in support of the other agency.
3
  This System provides users access to return and filer information related to the filing and processing of EP,
Exempt Organizations, and Government Entities functions’ forms.
4
  The TE/GE Division Customer Account Services call site may use the EUAS to determine whether a return has
been filed if a customer calls after receiving a Taxpayer Delinquency Investigation notice.
5
  The remaining two operations include the Ogden Submission Processing Site EP Entities unit and the TE/GE
Division Customer Account Services call site. Submission Processing Sites process paper and electronic
submissions for analysis and posting to taxpayer accounts.
                                                                                                                  2
               The Initial Implementation of the End User Access System Was
              Not Effectively Planned and the Continued Implementation Needs
                            to Ensure the Efficient Use of Resources


be another research tool for their staff and was not intended to replace any current IRS sources as
the primary research tool. TE/GE Division management’s plan was to evaluate the use of the
EUAS after several months to determine if the EUAS workstations and user accounts were in the
correct locations. If this review of the EUAS confirms there is a limited need for it within the
IRS, any future decisions regarding the EUAS should be made based on what would be the most
efficient use of IRS resources.
Because TE/GE Division management did not formally assess the potential impact the EUAS
would have on its operations prior to implementation, the IRS may have taken unnecessary
actions to determine the best approach for implementing the EUAS. As a result, IRS resources
within the TE/GE Division, the Mission Assurance and Security Services office, and the
Modernization and Information Technology Services (MITS) organization may not have been
effectively used during the period July 2000 through May 2005. The TE/GE Division cannot
determine whether existing resources are being effectively used because it does not receive the
cost and financial information for the EUAS from the DOL, the MITS organization, the Mission
Assurance and Security Services office or from within the TE/GE Division offices.

Recommendations
We recommended the Director, EP, prior to placing additional resources on the EUAS, monitor
EUAS usage in each operation for both peak and nonpeak periods when determining the optimal
placement and number of user accounts for the EUAS and assess the impact the system has had
on each of the four IRS operations using it, as well as any anticipated needs of the EUAS. We
also recommended the Director, Business Systems Planning, ensure cost and financial reporting
information is maintained and monitored for operating and maintaining the EUAS, to determine
whether IRS resources are effectively used.

Response
TE/GE Division management agreed with the findings and recommendations in the report.
Specifically, TE/GE Division management will assess the EUAS impact by monitoring EUAS
usage quarterly and during peak and nonpeak periods, and will use the results to determine the
optimal resource allocation for the EUAS. In addition, TE/GE Division management will
finalize with the DOL a reporting cycle to receive copies of receipt and acceptance records of
vendor-provided services related to the EUAS. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.

                                                                                                  3
                     The Initial Implementation of the End User Access System Was
                    Not Effectively Planned and the Continued Implementation Needs
                                  to Ensure the Efficient Use of Resources




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Absence of a Planning Process Resulted in the Expenditure of
          Resources to Deliver a System That May Have Limited Operational
          Impact ...........................................................................................................Page 4
                    Recommendations 1 and 2: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
                  The Initial Implementation of the End User Access System Was
                 Not Effectively Planned and the Continued Implementation Needs
                               to Ensure the Efficient Use of Resources




                                            Background

The Employee Retirement Income Security Act of 1974 (ERISA)1 requires plan administrators
and sponsors of certain employee benefit plans to submit an Annual Return/Report of Employee
Benefit Plan (Form 5500). Forms 5500 are filed with the Department of Labor (DOL), which
has contracted with a private contractor to process the returns using the ERISA Filing
Acceptance System (EFAST)2 and to electronically provide the Form 5500 data to the Internal
Revenue Service (IRS) and three other Federal Government agencies.3
On June 15, 2000, the IRS and DOL established an Interagency Agreement4 for the IRS Tax
Exempt and Government Entities (TE/GE) Division to receive services for the processing of
Forms 5500. As part of this Interagency Agreement, the DOL was required to provide the IRS
access to a system containing digital images of the Forms 5500, attached schedules, and
envelopes (showing the postmark date). This system, the End User Access System (EUAS),5
was rolled out to IRS TE/GE Division operational areas and to selected areas within the Small
Business/Self-Employed (SB/SE) Division site in Ogden, Utah, that assist in the resolution of
return processing errors and in the management of accounts for TE/GE Division customers. The
EUAS became operational in the IRS in December 2004 but did not become fully functional until
mid-May 2005.
The TE/GE Division is responsible for ensuring employee benefit plans comply with applicable
provisions of the Internal Revenue Code. Upon obtaining access to the EUAS, IRS employees
can view, search, and print electronic images of the Forms 5500 needed by the Ogden
Submission Processing Site6 Employee Plans Entity (EP Entity) unit, the Ogden Accounts
Management Center Employee Plans Accounts (EP Accounts) unit, the TE/GE Division
Customer Account Services (CAS) call site, and the TE/GE Division Employee Plans (EP)
Examinations function. Form 5500 images are intended to be used by the following operations:




1
  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C.,
29 U.S.C., and 42 U.S.C.).
2
  The EFAST system captures paper and electronic Form 5500 return information in a format compatible with the
IRS’ Employee Plans Master File (a database that maintains account information for employee plans). It also
produces electronic images of the paper Forms 5500.
3
  The DOL, IRS, Social Security Administration, and Pension Benefit Guaranty Corporation.
4
  A written agreement entered into between two Federal Government agencies that specifies the goods to be
furnished or tasks to be accomplished by one agency in support of the other agency.
5
  The EUAS is a subsystem of the EFAST and is used to view, search, and print electronic images of Forms 5500.
6
  Submission Processing Sites process paper and electronic submissions for analysis and posting to taxpayer
accounts.
                                                                                                           Page 1
                 The Initial Implementation of the End User Access System Was
                Not Effectively Planned and the Continued Implementation Needs
                              to Ensure the Efficient Use of Resources



•   The EP Entity unit plans to use the EUAS to resolve unposted transactions for which return
    information could not be validated or authenticated with existing information on the IRS
    Employee Plans Master File and to process replies to Taxpayer Delinquency Investigation
    notices.
•   The EP Accounts unit plans to use the EUAS to determine whether penalty notices for late or
    incomplete returns should be issued and to process correspondence received from filers
    concerning their Form 5500 accounts.
•   The TE/GE Division CAS call site plans to use the EUAS to respond to customers’ telephone
    calls regarding filed Forms 5500.
•   The EP Examinations function plans to use the EUAS to provide its employees with original
    copies of Forms 5500 under examination for Forms 5500 involved in court cases, for
    Abusive Tax Avoidance Transaction cases, or when there are questions on the accuracy of
    return information on the Return Inventory Classification System.7
A prior Treasury Inspector General for Tax Administration (TIGTA) audit8 found
TE/GE Division employees did not have access to the EUAS as of February 2002 because
telecommunication issues associated with the transmission of data from the DOL contractor’s
site were not resolved. In addition, the TE/GE Division had not conducted an analysis to
determine the number of IRS employees that needed access to the imaged Forms 5500. Instead,
the IRS and DOL met and assigned the IRS 30 EUAS user accounts without obtaining data on
the number of user accounts that would ultimately be needed by the IRS. During that audit, we
were advised the EP Entity and EP Accounts units alone needed access to the EUAS for about
30 users.
We recommended the Commissioner, TE/GE Division, determine the appropriate number of
users needing access to the EUAS and take actions to obtain access for these additional users.
TE/GE Division management’s response was to not change the initial number and allocation of
user accounts because they did not have any history on which to base a decision prior to the
implementation of the EUAS.
This review was performed at the IRS National Headquarters Business Systems Planning and EP
Program offices in Washington, D.C.; the TE/GE Division CAS call site in Cincinnati, Ohio; the
EP Examinations function in Baltimore, Maryland; and the EP Entity and EP Accounts units
operated by the SB/SE Division in Ogden, Utah. We also interviewed employees and obtained
information regarding the EUAS at the IRS Modernization and Information Technology Services
(MITS) organization and the Mission Assurance and Security Services office in

7
  This System provides users access to return and filer information related to the filing and processing of EP,
Exempt Organizations, and Government Entities functions’ forms.
8
  Improvements Are Needed to Ensure That Employee Plans Return Information Is Timely Received and That
Returns Are Properly Processed and Adequately Safeguarded (Reference Number 2002-10-098, dated June 2002).
                                                                                                         Page 2
               The Initial Implementation of the End User Access System Was
              Not Effectively Planned and the Continued Implementation Needs
                            to Ensure the Efficient Use of Resources



New Carrollton, Maryland. The audit work was conducted during the period December 2004
through June 2005. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                        Page 3
                  The Initial Implementation of the End User Access System Was
                 Not Effectively Planned and the Continued Implementation Needs
                               to Ensure the Efficient Use of Resources




                                      Results of Review

The Absence of a Planning Process Resulted in the Expenditure of
Resources to Deliver a System That May Have Limited Operational
Impact

At the time of our review, TE/GE Division management was in the process of introducing the
EUAS within four operational work units and encouraging employees to become familiar with it.
Their plan was to evaluate the use of the EUAS after several months to determine if the EUAS
workstations and user accounts were in the correct locations. However, based on our review of
four judgmental samples within the TE/GE Division operations using the EUAS and the SB/SE
Division site responsible for processing TE/GE Division return information and notices and
discussions with TE/GE Division management, we believe the EUAS has been demonstrated to
be a useful research tool in only two operations, the EP Accounts unit and the EP Examinations
function Classification unit. In addition, TE/GE Division management advised us the EUAS
may be used in the future as a research tool for the EP function Taxpayer Delinquency
Investigation initiative. The TE/GE Division CAS call site may use the EUAS to determine
whether a return has been filed if a customer calls after receiving a Taxpayer Delinquency
Investigation notice.
For the remaining two operations9 in our samples, employees were able to obtain the necessary
information to complete their work through other IRS sources for 98 to 100 percent of our
sampled cases. TE/GE Division management advised us the EUAS was intended to be another
research tool for their staff and was not intended to replace any current IRS sources as the
primary research tool. If TE/GE Division management’s planned review of the EUAS confirms
there is a limited need for it within the IRS, any future decisions regarding the EUAS should be
made based on what would be the most efficient use of IRS resources.
Because TE/GE Division management did not formally assess the potential impact the EUAS
would have on its operations prior to implementation, the IRS may have taken unnecessary
actions to determine the best approach for implementing the EUAS. As a result, IRS resources
within the TE/GE Division, the Mission Assurance and Security Services office, and the MITS
organization may not have been effectively used during the period July 2000 through May 2005.



9
 The remaining two operations include the Ogden Submission Processing Site EP Entities unit and the TE/GE
Division CAS call site. Submission Processing Sites process paper and electronic submissions for analysis and
posting to taxpayer accounts.
                                                                                                          Page 4
                     The Initial Implementation of the End User Access System Was
                    Not Effectively Planned and the Continued Implementation Needs
                                  to Ensure the Efficient Use of Resources



During the initial planning of the EUAS, TE/GE Division management should have:
•      Assessed the EUAS’ potential impact on the IRS operational areas in which it would be
       implemented.
•      Determined the optimal number of IRS user accounts and allocation of the EUAS
       workstations for each operation.
•      Determined the costs and resources associated with implementing and maintaining the EUAS
       for the TE/GE Division, the MITS organization, and the Mission Assurance and Security
       Services office to assure the best use of resources.

Assess the EUAS’ potential impact on IRS operations

To determine the potential impact the EUAS has had or may have on the IRS, we selected four
judgmental samples from the TE/GE Division operations using the EUAS and the SB/SE
Division sites responsible for processing EP function return information and notices. The results
of the four judgmental samples are shown below.
•      The judgmental sample of 50 notices generated in connection with Forms 5500 processed in
       Fiscal Year (FY) 2005 by the EP Accounts unit showed the EUAS had a positive impact on
       determining whether to mail a notice to a customer. For 42 (84 percent) of the 50 notices,
       information was available on IRS systems for EP Accounts unit employees to determine
       whether a notice should be mailed to customers. For the remaining 8 (16 percent) notices,
       the EUAS provided additional information, such as the postmark date from the envelope, that
       allowed employees to determine whether a notice should be mailed. The results of our
       judgmental sample were similar to those of a much larger sample conducted by a TE/GE
       Division analyst. The TE/GE Division analyst tested 3,527 closed Computer Paragraph 213
       Notices10 generated from April 12 through June 27, 2005, and found the EUAS was needed
       to close 446 (12.6 percent) of the Notices. If IRS employees had not used the EUAS, these
       customers would have received erroneous notices, causing additional taxpayer burden,
       correspondence to the operation, and customer inquiries to the TE/GE Division CAS call site.
•      The judgmental sample of 50 unposted Form 5500 transactions received in FY 2005 by the
       EP Entity unit showed the additional information from the EUAS assisted in resolving
       1 more unposted Form 5500 transaction (2 percent). For this unposted transaction,
       information from the EUAS was needed to determine the correct Employer Identification
       Number.11 The information needed to resolve the remaining 49 unposted Form 5500



10
     This Notice is entitled Notification of Proposed Penalty for Late/Incomplete Return.
11
     A unique nine-digit number used to identify a taxpayer’s business account.
                                                                                            Page 5
                  The Initial Implementation of the End User Access System Was
                 Not Effectively Planned and the Continued Implementation Needs
                               to Ensure the Efficient Use of Resources



     transactions (98 percent) was found on the Integrated Data Retrieval System.12 While the
     EUAS was needed to resolve only one unposted transaction, TE/GE Division CAS
     management advised us they also use the EUAS as an additional research tool to verify
     information on the Integrated Data Retrieval System when resolving certain unpostable
     conditions.
•    The judgmental sample of 50 examination cases processed in FY 2005 by the EP
     Examinations function showed the EUAS would not assist EP function agents in the
     processing of examination cases (0 percent). Our sample showed that, for a majority of the
     examination cases, copies of the Forms 5500 were obtained by requesting the Forms along
     with other documents requested from the taxpayers during the EP Examinations function
     process or through the Return Inventory Classification System. While the EUAS did not
     assist in the processing of examination cases, EP Examinations function management advised
     us the EUAS is used by the EP Examination function Classification unit to retrieve 50 copies
     of Forms 5500 for its Quarterly Quality Reviews. The EP Classification unit also uses the
     EUAS to obtain prior and subsequent year returns that are not on the Employee Plans Master
     File or Return Inventory Classification System but were filed with the DOL contractor by the
     taxpayers. Our review of the EP Examinations EUAS Usage Log showed that, from
     January 4 through March 29, 2005, the EP Examinations function requested 63 Form 5500
     printouts from the EUAS.
•    The judgmental sample of 100 customer inquiries received at the TE/GE Division CAS
     call site in FY 2005 showed the EUAS was not needed to resolve any customer inquiry
     (0 percent). Incoming customer inquiries relating to a filed Form 5500, general questions
     about Forms 5500, and questions relating to retirement plans are routed to Application 415
     on the TE/GE Division CAS call site telephone system.13 For our sample, most of the
     customer inquiries for Application 415 were related to general questions concerning
     Forms 5500 and other issues related to retirement plans. Our sample included only
     10 customer inquiries regarding a filed Form 5500; the inquiries were resolved without the
     need to access the EUAS. In addition, the TE/GE Division CAS call site has not used the
     EUAS for any operational purposes and on May 11, 2005, gave the Ogden Submission
     Processing Site several of its user accounts for the EUAS.



12
   The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
13
   This telephone system is operated by the SB/SE Division at the Cincinnati Campus located in
Covington, Kentucky. It will automatically route calls based on a menu of topics callers can choose from. The
campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts. IRS Computing Centers
support tax processing and information management through a data processing and telecommunications
infrastructure.
                                                                                                           Page 6
               The Initial Implementation of the End User Access System Was
              Not Effectively Planned and the Continued Implementation Needs
                            to Ensure the Efficient Use of Resources



Instead of evaluating the potential impact of the EUAS on operations, TE/GE Division
management concentrated on working with the Mission Assurance and Security Services office
and the MITS organization to resolve the security issues preventing the IRS from accessing the
EUAS and relying on the initial decision to allocate the EUAS workstations to certain locations.
In March 2002, the MITS organization submitted to the TE/GE Division a detailed study
entitled, “IRS End-User Online Access to Form 5500 Series Filings.” The objective of the study
was to provide a decision framework to identify the best available alternative to implement the
EUAS in a manner that would meet the TE/GE Division EUAS requirements. This extensive
study compared eight alternatives for implementing the EUAS requirements by evaluating each
alternative using nine weighted evaluation criteria.
While TE/GE Division management did not have records on the resources used to complete the
study, IRS resources from the Mission Assurance and Security Services office, the MITS
organization, and the TE/GE Division were expended to determine the best alternative for
implementing the EUAS requirements from a technical engineering perspective. Had TE/GE
Division management performed an initial review to assess the potential impact the EUAS would
have on its operations or whether its operations had an actual need for the EUAS, they would
have had the information needed to appropriately assess the TE/GE Division’s priorities for
expending resources in the Mission Assurance and Security Services office and the MITS
organization.

Determine the optimal number of IRS user accounts and allocation of the EUAS
workstations

In response to the prior TIGTA report, TE/GE Division management did not change their initial
allocation and number of 30 user accounts and 10 EUAS workstations because the Division was
beginning to “stand up” organizationally and no historical information existed as a basis for a
different allocation of user accounts and workstations. TE/GE Division management advised us
they had not reevaluated those allocations before the EUAS was implemented but discussions are
currently ongoing among the various TE/GE Division operations regarding the reallocation of
user accounts. They are attempting to determine whether they can operate efficiently with the
number of user accounts that exist under the current terms of the DOL contract.
In addition, while an analysis has not been performed to determine whether the EUAS
workstations are placed according to business needs, the TE/GE Division is monitoring the
workload of existing workstations to assess whether EUAS workstations are placed in the correct
locations.
An additional item for consideration involves the fluctuations in workload during the year for the
different operations. TE/GE Division management should consider conducting periodic reviews


                                                                                           Page 7
               The Initial Implementation of the End User Access System Was
              Not Effectively Planned and the Continued Implementation Needs
                            to Ensure the Efficient Use of Resources



to ensure the peak and nonpeak periods of workload fluctuations are included when determining
the best placement of the EUAS workstations.
If IRS management determines that additional IRS user accounts are needed, the capacity of the
EUAS would have to be increased. This will require submitting an Engineering Change
Proposal to the DOL contractor requesting an increase in capacity. The change will also require
that new and upgraded hardware be installed. If the IRS is the only agency requesting the
upgrade, it will have to assume all of the costs associated with the upgrade.

Determine the costs and resources associated with implementing and
maintaining the EUAS

The TE/GE Division does not receive the EUAS cost and financial information from the DOL,
the MITS organization, the Mission Assurance and Security Services office, or the various
TE/GE Division functions to allow it to identify the total costs for implementing and maintaining
the EUAS. This information is needed to determine whether IRS resources are being effectively
used.
Our review of the DOL contract modifications dated from October 22, 1998, through
September 14, 2004, showed the contract had been modified to require the IRS to pay an
additional $1,045,785 in EFAST telecommunication infrastructure costs for both the EUAS and
the DOL contractor’s EFAST call center. However, since the DOL contract does not segregate
these two costs, the IRS’ portion of the infrastructure costs allocated to the EUAS is not known.
To determine the total costs for the EUAS, the TE/GE Division needs to consider the cost of IRS
resources used by the Mission Assurance and Security Services office, the MITS organization,
and the TE/GE Division, in addition to the EFAST telecommunication infrastructure costs.
TE/GE Division management advised us they were not provided cost information by the Mission
Assurance and Security Services office or the MITS organization for their efforts to resolve
telecommunication issues and to determine the best approach to implement and maintain the
EUAS. Further, the TE/GE Division did not separately track its resource costs when working to
implement the EUAS. Although there is no cost information from the Mission Assurance and
Security Services office or the MITS organization, the resource cost over 4 years was likely
significant. This is an important consideration because these offices are also responsible for the
IRS’ high-priority systems modernization projects. It further highlights the need for TE/GE
Division management to evaluate the potential impact and use of the EUAS in determining the
best use of resources.
Since the separation of the EUAS infrastructure cost information was not specified within the
Interagency Agreement with the DOL and the MITS organization, and neither the Mission
Assurance and Security Services office nor the TE/GE Division separately track the costs for a
particular system, the total costs associated with implementing and maintaining the EUAS are
unknown.
                                                                                           Page 8
               The Initial Implementation of the End User Access System Was
              Not Effectively Planned and the Continued Implementation Needs
                            to Ensure the Efficient Use of Resources



Recommendations
Recommendation 1: Prior to placing additional IRS resources on the EUAS, the
Director, EP, should assess the impact the EUAS has had on each of the four IRS operations
using it, as well as any anticipated needs of the EUAS. The impact assessment should monitor
use of the EUAS for a period long enough to ensure the peak and nonpeak use periods for each
IRS operation is captured and should show how the EUAS can be used to 1) operate as a
research tool for unposted Form 5500 transactions, 2) assist in closure of EP Examinations
function cases, 3) operate as a research tool for the EP Classification unit, 4) answer customer
inquiries, and 5) process penalty notices that cannot be completed using current IRS sources of
information.
       Management’s Response: The Business Systems Planning and Employee Plans
       functions will assess the EUAS impact by monitoring EUAS usage quarterly and during
       peak and nonpeak periods. The results will aid in determining the optimal resource
       allocation for the EUAS.
Recommendation 2: The Director, Business Systems Planning, should ensure cost and
financial reporting information is maintained and monitored for operating and maintaining the
EUAS, to determine whether IRS resources are effectively used.
       Management’s Response: The Business Systems Planning function will finalize
       with the DOL a reporting cycle to receive copies of DOL receipt and acceptance records
       of vendor-provided services related to the EUAS and its costs.




                                                                                           Page 9
                  The Initial Implementation of the End User Access System Was
                 Not Effectively Planned and the Continued Implementation Needs
                               to Ensure the Efficient Use of Resources



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to assess the impact the End User Access System
(EUAS)1 will have on the Internal Revenue Service (IRS) operations and to evaluate IRS
processes used to prepare for the planned implementation of the EUAS. To achieve this
objective, we:
I.      Determined what impact the EUAS has had or may have on each Tax Exempt and
        Government Entities (TE/GE) Division and Small Business/Self-Employed Division
        operation.
        A. Determined what impact the EUAS has had on the processing of unpostable
           Annual Return/Reports of Employee Benefit Plan (Form 5500) by the Ogden, Utah,
           Submission Processing Site2 Employee Plans Entity unit by interviewing personnel
           and reviewing a judgmental sample of 50 unposted Forms 5500 from a population of
           2,975 unposted Forms 5500 generated during the week of February 6 through
           February 12, 2005.
        B. Determined what impact the EUAS has had on the TE/GE Division Employee Plans
           Examinations function by interviewing personnel and reviewing a judgmental sample
           of 50 examination cases from a population of 2,591 examinations closed between
           September 26, 2004, and January 22, 2005.
        C. Determined what impact the EUAS has had on the TE/GE Division Customer
           Account Services call site operation by interviewing personnel and reviewing a
           judgmental sample of 100 Form 5500 customer telephone inquiries received between
           January 20 and March 24, 2005.
        D. Determined whether there are additional TE/GE Division operations that need access
           to the EUAS.



1
  The EUAS is a subsystem of the ERISA Filing Acceptance System (EFAST) and is used to view, search, and print
electronic images of Annual Return/Reports of Employee Benefit Plan (Form 5500). The ERISA is the Employee
Retirement Income Security Act of 1974 (Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered
sections of 5 U.S.C., 18 U.S.C., 26 U.S.C., 29 U.S.C., and 42 U.S.C.)). The EFAST system captures paper and
electronic Form 5500 return information in a format compatible with the Internal Revenue Service’s Employee
Plans Master File (a database that maintains account information for employee plans). It also produces electronic
images of the paper Forms 5500.
2
  Submission Processing Sites process paper and electronic submissions for analysis and posting to taxpayer
accounts.

                                                                                                         Page 10
               The Initial Implementation of the End User Access System Was
              Not Effectively Planned and the Continued Implementation Needs
                            to Ensure the Efficient Use of Resources



       E. Determined the impact the EUAS has had on the processing of notices by the
          Ogden Accounts Management Center Employee Plans Accounts (EP Accounts) unit
          by interviewing TE/GE Division analysts at the EP Accounts unit and reviewing a
          judgmental sample of 50 notices proposing a penalty for filing a late or incomplete
          Form 5500 from a population of 1,989 notices generated between February 6 and
          February 12, 2005.
II.    Evaluated the TE/GE Division process used to prepare for the planned implementation of
       the EUAS.
       A. Interviewed TE/GE Division personnel to determine whether the process used to
          define the EUAS requirements was adequate to meet the needs of the TE/GE
          Division.
       B. Interviewed TE/GE Division personnel to evaluate the basis of any analysis
          performed to determine the allocation and appropriate number of IRS users that need
          access to the EUAS and the actions taken to obtain access for any additional IRS
          users.
       C. Interviewed TE/GE Division personnel and reviewed the TE/GE Division’s current
          list and plan for the EUAS workstations to evaluate the basis of any analysis
          performed to determine the placement and appropriate number of EUAS workstations
          and the actions taken to obtain any additional workstations.
       D. Interviewed IRS Modernization and Information Technology Services (MITS)
          organization and Mission Assurance and Security Services office personnel to
          determine whether alternative methods to obtain the needed Form 5500 information
          (other than use of the EUAS) were considered and reviewed the “IRS End-User
          Online Access to Form 5500 Filings” analysis that evaluated the different alternatives
          using the EUAS to determine whether the IRS could make a sound business decision
          based on the results of the analysis.
III.   Determined what issues have prevented the planned implementation of the EUAS.
       A. Interviewed TE/GE Division and MITS organization personnel to determine whether
          any system requirement issues have prevented implementation of the EUAS.
       B. Interviewed TE/GE Division and Mission Assurance and Security Services office
          personnel and reviewed the Employee Retirement Income Security Act of 1974 Filing
          Acceptance System Security Test and Evaluation Report to determine whether
          certification requirement issues have prevented implementation of the EUAS.
       C. Interviewed TE/GE Division, MITS organization, and Mission Assurance and
          Security Services office personnel to determine to what extent the process used
          to coordinate, communicate, and resolve EUAS requirements and certification issues
          among these key IRS offices has caused a delay in implementing the EUAS.

                                                                                         Page 11
              The Initial Implementation of the End User Access System Was
             Not Effectively Planned and the Continued Implementation Needs
                           to Ensure the Efficient Use of Resources



      D. Interviewed TE/GE Division and MITS organization personnel to determine to what
         extent the process used to coordinate, communicate, and resolve EUAS requirements
         and certification issues among the IRS, the Department of Labor (DOL), and the
         DOL contractor has caused a delay in implementing the EUAS.
IV.   Determined the costs needed to implement and maintain the EUAS and the planned
      benefits to the TE/GE Division by obtaining access to the imaged Forms 5500.
      A. Interviewed TE/GE Division, MITS organization, and Mission Assurance and
         Security Services office personnel and reviewed the DOL contract modifications to
         identify the costs incurred by the IRS and to determine the costs needed to implement
         and maintain the EUAS.
      B. Interviewed TE/GE Division management to assess any added costs the IRS may
         incur should they decide to obtain additional IRS user accounts and/or EUAS
         workstations.
      C. Interviewed TE/GE Division personnel to determine the planned benefits of providing
         TE/GE Division operations access to the imaged Forms 5500.




                                                                                       Page 12
               The Initial Implementation of the End User Access System Was
              Not Effectively Planned and the Continued Implementation Needs
                            to Ensure the Efficient Use of Resources



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
James V. Westcott, Audit Manager
John W. Baxter, Lead Auditor
Andrew J. Burns, Senior Auditor
Carol A. Rowland, Auditor




                                                                                      Page 13
              The Initial Implementation of the End User Access System Was
             Not Effectively Planned and the Continued Implementation Needs
                           to Ensure the Efficient Use of Resources



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Business Systems Planning, Tax Exempt and Government Entities Division SE:T:BSP
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 14
    The Initial Implementation of the End User Access System Was
   Not Effectively Planned and the Continued Implementation Needs
                 to Ensure the Efficient Use of Resources



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 15
 The Initial Implementation of the End User Access System Was
Not Effectively Planned and the Continued Implementation Needs
              to Ensure the Efficient Use of Resources




                                                        Page 16
